HHS/OIG, Audit - "Review of High-Dollar Payments for Oklahoma
Medicare Part B Claims Processed by Pinnacle Business Solutions, Inc., for the
Period January 1, 2003, Through December 31, 2003," (A-06-07-00088)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for Oklahoma Medicare Part B Claims Processed by Pinnacle Business Solutions,
Inc., for the Period January 1, 2003, Through December 31, 2003,"
(A-06-07-00088)
December 28, 2007
Complete Text of Report is available in PDF format (302 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
Pinnacle Business Solutions, Inc.s (Pinnacle) high-dollar Medicare payments to
Oklahoma Part B providers were appropriate.  Of the 160 high-dollar payments
that Pinnacle made to providers, 149 were appropriate.  However, Pinnacle
overpaid providers $104,608 for the remaining 11 claims.  One provider refunded
an overpayment, totaling $17,042, prior to our fieldwork.  Another provider
refunded an overpayment, totaling $34,938, during our fieldwork.  Nine
overpayments, totaling $53,723, and one underpayment, totaling $1,094, remained
outstanding.  We recommended that Pinnacle recover the $53,723 in overpayments,
refund the $1,094 underpayment, review all 2003 claims with Healthcare Common
Procedure Coding System code Q0187 to determine whether the correct drug price
was used to calculate the reimbursement, review for accuracy claims that had a
charged amount equal to the allowed amount, and consider using the results of
this audit in its provider education activities.  Pinnacle agreed with the
findings and recommendations.